TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Employees Are Not Always Ensuring That
                    Taxpayers Pay the Maximum Amount
                   Possible When Granting Partial Payment
                           Installment Agreements



                                      September 14, 2007

                              Reference Number: 2007-30-170




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 14, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Employees Are Not Always Ensuring That
                              Taxpayers Pay the Maximum Amount Possible When Granting Partial
                              Payment Installment Agreements (Audit # 200630018)

 This report presents the results of our review of the Internal Revenue (IRS) Partial Payment
 Installment Agreement (PPIA) program. The overall objective of this review was to determine
 whether decisions to grant PPIAs are proper and to determine the effectiveness of the
 management information system1 used to measure the PPIA program. The audit was initiated
 because the PPIA program was initially implemented in January 2005; this is our first review of
 the program.

 Impact on Taxpayer
 To receive a PPIA, a taxpayer has to provide to the IRS financial information that should be
 verified by an IRS employee to ensure the taxpayer pays the maximum amount possible.
 Employees are not always properly verifying the income or assets of the taxpayer, thus not
 collecting the maximum amount the taxpayer can pay. Inequitable treatment of taxpayers can
 result when employees in different functions perform varying degrees of financial verifications.
 Also, because the IRS did not initially establish an appropriate management information system
 to monitor and track performance of the PPIA program, it could not determine if the program
 was functioning as intended and serving taxpayers appropriately.


 1
   Managers use various information system reports to ensure inventories are being processed properly, sufficient
 staffing is being provided and used, and programs are being worked based on established time period requirements.
 The reports can also give important information on the effectiveness of a specific team or employee.
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



Synopsis
The American Jobs Creation Act of 20042 amended Internal Revenue Code Section 61593 to
provide the IRS the authority to enter into a PPIA when a tax liability will not be fully satisfied
within the Collection Statute Expiration Date.4 The IRS established guidelines requiring
employees to perform a financial analysis to ensure the taxpayer pays the maximum amount
possible.
The IRS did not initially establish an appropriate management information system to monitor
and track PPIAs. Our review indicated that 14,042 PPIAs were granted in Calendar Year 2005,
based upon computer codes designated for the program. IRS management recognized the need
to properly monitor and track PPIAs and has taken steps to implement a transaction code for
accepted PPIAs, which should allow it to more readily identify these cases. Implementation of
this code took effect in January 2007. The IRS has also submitted a Request for Information
Services5 that will start tracking the PPIAs as part of the Installment Agreement Collection
Reports and will collect pertinent information. Implementation of the new management
information system is scheduled for January 2008. However, PPIAs have not been properly
monitored and tracked over the past 2 years; therefore, IRS management cannot identify the
actual numbers that were granted or defaulted or the number of taxpayers that had completed
their payment requirements. As a result, the IRS cannot properly assess the overall performance
of the PPIA program.
In 28 of 56 cases reviewed,6 IRS employees did not document verification of the taxpayers’
income and assets in the case files or history sheets. Some employees relied upon the limited
financial information provided by the taxpayers and did not properly document the verification
of IRS computer records for the last tax returns filed information. As a result of not verifying
income, expenses, and assets, the IRS may not be collecting the maximum amount the taxpayers
can pay because these taxpayers will not have paid off the liabilities in full when the collection
statutes expire.




2
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
3
  Internal Revenue Code Section 6159 (2004) – Agreements for payment of tax liability in installments.
4
  The Collection Statute Expiration Date is the last date on which the IRS can collect delinquent tax without filing a
suit for judgment; it is usually 10 years from the tax assessment date.
5
  A Request for Information Services is a request for automated information system support initiated within the IRS
and addressed to the Information Technology Services function. It is a mandatory process for all IRS organizations
to request extracts from, or make changes to, an IRS computer system, documents, software, or hardware.
6
  There was no PPIA documentation available for 2 of the 58 PPIAs we reviewed, so we were unable to determine if
these PPIAs received managerial approval or verification of income or assets.
                                                                                                                     2
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



Recommendations
We recommended the Director, Collection, Small Business/Self-Employed Division, and the
Director, Compliance, Wage and Investment Division, ensure that the new coding for PPIAs has
been implemented properly and is working appropriately and that the management information
system will meet their needs after its implementation. In addition, they should (1) reemphasize
that when working PPIAs employees need to obtain appropriate documentation of income, verify
assets, and appropriately document the verification actions in the history sheets and case files
and (2) remind employees they should be asking taxpayers specific questions regarding the types
of income they receive, investments they have, and real property they own and their ability to
liquidate or borrow against them.

Response
IRS management agreed with the first recommendation and partially with the second
recommendation. The IRS developed a method to better identify PPIAs using new transaction
codes and successfully implemented it in January 2007. This new coding will allow PPIA data
to be included in the Installment Agreement Collection Reports starting in January 2008. The
IRS will ensure these Reports meet its needs for monitoring the program and make revisions as
needed. It will be revising the campus7 Internal Revenue Manual to incorporate procedural
changes and clarification where necessary regarding income and asset verification and analysis.
It will also provide training to campus employees, including instructions relating to PPIAs.
Management’s complete response to the draft report is included in Appendix V.

Office of Audit Comment
IRS management disagreed with the outcome measures as described in the report. They did not
agree with the number of cases for which an employee did not obtain a full financial statement
and/or that higher monthly payments (or full payments) would have been realized if internal
information sources had been verified. However, our analysis showed that, if the IRS had
performed appropriate and accurate financial analyses, it could have realized additional
revenues. IRS management also disagreed with the assumption that the rejection of an offer in
compromise8 makes granting a PPIA on the same account inappropriate. We agree that, as


7
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
8
  This is an agreement between a taxpayer and the Federal Government that settles a tax liability for payment of less
than the full amount owed. The IRS has the authority to settle or compromise a Federal tax liability by accepting
less than full payment under certain circumstances. This is accomplished through use of an Offer in Compromise
(Form 656).
                                                                                                                    3
                  Employees Are Not Always Ensuring That Taxpayers Pay the
                   Maximum Amount Possible When Granting Partial Payment
                                  Installment Agreements



financial conditions of the taxpayer change over time, the rejection of an offer in compromise
does not preclude acceptance of a PPIA; however, the financial analyses for an offer in
compromise and a PPIA should be consistently applied, including consideration of special
circumstances (e.g., elderly or disabled taxpayers), and similar decisions should be reached.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                 4
                        Employees Are Not Always Ensuring That Taxpayers Pay the
                         Maximum Amount Possible When Granting Partial Payment
                                        Installment Agreements




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          A Sufficient Management Information System Was Not Initially
          Implemented to Identify and Track the Partial Payment Installment
          Agreement Program ......................................................................................Page 3
                    Recommendation 1: .................................................................... Page 4

          Some Employees Did Not Perform Sufficient Financial Analyses
          When Granting Partial Payment Installment Agreements ............................Page 4
                    Recommendation 2: .................................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 14
       Employees Are Not Always Ensuring That Taxpayers Pay the
        Maximum Amount Possible When Granting Partial Payment
                       Installment Agreements




                     Abbreviations

CSED             Collection Statute Expiration Date
IRS              Internal Revenue Service
OIC              Offer in Compromise
PPIA             Partial Payment Installment Agreement
                      Employees Are Not Always Ensuring That Taxpayers Pay the
                       Maximum Amount Possible When Granting Partial Payment
                                      Installment Agreements




                                               Background

The American Jobs Creation Act of 20041 amended Internal Revenue Code Section 61592 to
provide the Internal Revenue Service (IRS) the authority to enter into a partial payment
agreement or a Partial Payment Installment Agreements (PPIA) when a tax liability will not be
fully satisfied within the Collection Statute Expiration Date (CSED).3
Prior to enactment of the American Jobs Creation Act of 2004, taxpayers who could not
immediately fully pay their tax liabilities could enter into installment agreements with the IRS to
fully pay their tax liabilities within the agreement period (usually 60 months). A taxpayer who
could not fully pay could also request an offer in compromise (OIC)4 to pay a portion of the tax
liability. OICs are handled mainly by the Centralized Offer in Compromise unit.5
Revenue officers in the Small Business/Self-Employed Division set up (grant) PPIAs; tax
examiners in the Small Business/Self-Employed Division Automated Collection System6
function and the Wage and Investment Division units also grant these agreements. A PPIA
requires a complete financial analysis such as a monthly income and expenses comparison and
verification of the taxpayer’s income and assets to determine the maximum monthly payment
based on the taxpayer’s ability to pay. Streamlined agreements (accounts that are under a certain
dollar amount that could be paid off within 36 months) do not require financial analyses.
A PPIA involves the expiration of the CSED on at least one tax period7 and allows the IRS to
receive partial payment of the taxpayer’s tax liability before the collection statute expires. Once
the CSED expires on a particular tax period, the IRS can no longer pursue collection for that tax



1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  Internal Revenue Code Section 6159 (2004) – Agreements for payment of tax liability in installments.
3
  The CSED is the last date on which the IRS can collect delinquent tax without filing a suit for judgment; it is
usually 10 years from the tax assessment date.
4
  This is an agreement between a taxpayer and the Federal Government that settles a tax liability for payment of less
than the full amount owed. The IRS has the authority to settle or compromise a Federal tax liability by accepting
less than full payment under certain circumstances. This is accomplished through use of an Offer in Compromise
(Form 656).
5
  These are the IRS units located in the Holtsville, New York, and Memphis, Tennessee, Campuses that complete
initial processing and work less complicated OICs to completion. Campuses are the data processing arm of the IRS.
They process paper and electronic submissions, correct errors, and forward data to the Computing Centers for
analysis and posting to taxpayer accounts.
6
  This is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns
from delinquent taxpayers who have not complied with previous notices.
7
  This refers to each tax return filed by the taxpayer for a specific period (year or quarter) during a calendar year for
each type of tax.
                                                                                                                 Page 1
                   Employees Are Not Always Ensuring That Taxpayers Pay the
                    Maximum Amount Possible When Granting Partial Payment
                                   Installment Agreements



liability. Because the IRS will not collect the full tax liabilities, the taxpayers must agree to the
maximum monthly payments based on their abilities to pay.
This review was performed at the IRS Centralized Case Processing Site in
Philadelphia, Pennsylvania, during the period February through October 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                                Page 2
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements




                                      Results of Review

A Sufficient Management Information System Was Not Initially
Implemented to Identify and Track the Partial Payment Installment
Agreement Program
The IRS did not initially develop an appropriate management information system8 to properly
identify the volume of or track all PPIAs granted at the onset of the program. Without an
appropriate management information system, the IRS cannot monitor and assess the performance
of the program or determine if the program is functioning as intended.
On January 17, 2005, the IRS began using Agreement Locator Numbers9 ending in “12” on a
computer database to identify taxpayer accounts in PPIA status. Prior to January 17, 2005,
Agreement Locator Numbers ending in “12” were used to identify other types of installment
agreements. IRS management informed us the number of installment agreement accounts in this
program was very limited and that was why it was chosen for the PPIA program. Our computer
extract of all taxpayer accounts with the Agreement Locator Number ending in “12” from
January 17 through December 16, 2005, identified 14,042 PPIAs.
Management relied on a computer program that would identify installment agreements ending in
“12” to determine the number of PPIAs that are still current. While this program would identify
the majority of accounts in PPIA status that are still current, the IRS could not identify the actual
numbers of PPIAs that had been granted or defaulted or the number of taxpayers that had
completed their payment requirements because it did not have an appropriate management
information system in place. The IRS also cannot determine the actual amounts collected
through the PPIA program or the amounts of liabilities remaining after the CSEDs have
expired.10
After establishing a short-term method, IRS management focused on a method for a
long-range management information system for PPIAs. In August 2006, it created a PPIA
Design Document to implement changes to both the Integrated Collection System11 and the IRS

8
  Managers use various information system reports to ensure inventories are being processed properly, sufficient
staffing is being provided and used, and programs are being worked based on established time period requirements.
The reports can also give important information on the effectiveness of a specific team or employee.
9
  The Agreement Locator Number is a four-digit code indicating the specific type of processing that will occur at the
campus level.
10
   See Appendix IV for details.
11
   The Integrated Collection System is a computer application used by Compliance function employees to monitor
inventory. Histories of OIC investigations conducted by Area Office employees are maintained on this System.
                                                                                                             Page 3
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



computer system. The changes will implement a transaction code for accepted PPIAs, which
should allow the IRS to more readily identify these cases. The implementation date for the new
transaction code was January 2007.
The IRS also has submitted another Request for Information Services12 that will start tracking the
PPIAs on the Installment Agreement Collection Reports and will track the number of
agreements, the amount of the liabilities, the payments received per the agreements, the number
of defaults, and other pertinent information so the IRS can appropriately assess the performance
of the program. The scheduled implementation date for tracking PPIAs is January 2008.

Recommendation
Recommendation 1: The Director, Collection, Small Business/Self-Employed Division, and
the Director, Compliance, Wage and Investment Division, should ensure that the new coding for
identifying PPIAs has been implemented properly and is working appropriately and that the new
section of the Installment Agreement Collection Reports meets their needs for an appropriate
management information system to monitor performance of the overall PPIA program.
        Management’s Response: IRS management agreed with the recommendation and is
        taking appropriate actions. The IRS developed a method to better identify PPIAs using
        new transaction codes and successfully implemented it in January 2007. This new coding
        will allow PPIA data to be included in the Installment Agreement Collection Reports
        starting in January 2008. The IRS will ensure these Reports meet its needs for
        monitoring the PPIA program and make revisions as needed.

Some Employees Did Not Perform Sufficient Financial Analyses When
Granting Partial Payment Installment Agreements
Some IRS employees granted PPIAs without following procedures for analyzing taxpayer
financial information. Our conclusion is based upon review of a statistically valid sample of
61 PPIAs from a computer extract of 14,042 cases initiated between January 17 and
December 16, 2005.13 We reduced our sample size to 58 because 3 cases were not part of the
PPIA program.




12
   A Request for Information Services is a request for automated information system support initiated within the IRS
and addressed to the Information Technology Services function. It is a mandatory process for all IRS organizations
to request extracts from, or make changes to, an IRS computer system, documents, software, or hardware.
13
   The statistical sample was selected using a 95 percent confidence level, a precision level of ±10 percent, and an
estimated error rate of 20 percent.
                                                                                                            Page 4
                    Employees Are Not Always Ensuring That Taxpayers Pay the
                     Maximum Amount Possible When Granting Partial Payment
                                    Installment Agreements



The 58 agreements were granted by the following functions:
     •   Wage and Investment Division – 46.
     •   Small Business/Self-Employed Division Automated Collection System – 9.
     •   Small Business/Self-Employed Division revenue officers – 3.
The Internal Revenue Manual14 requires completion of a full Collection Information Statement
and that equity in assets be addressed and, if appropriate, used to make payments on the liability.
IRS employees must request a copy of a document, statement, etc. to verify income or an
expense claimed by the taxpayer when determining his or her ability to pay. The employees
should also check IRS computer records to determine income reported on the taxpayer’s last
filed income tax return.
In 28 of the 56 cases we reviewed,15 the IRS employee did not obtain a full financial statement
and did not properly document verification of the taxpayer’s assets and income in the case file or
history sheet. Employees relied upon the limited financial information provided by the taxpayer
and did not document verification of IRS computer records for last return filed information in the
case file or history sheet.
We determined that, if IRS employees had verified the income of the taxpayers, 24 of the
56 taxpayers could have paid higher monthly payments and as many as 14 of these taxpayers
could have made payments sufficient to fully pay the balances due by the CSEDs. As a result,
these 14 taxpayers would not have qualified for a PPIA. We based our analysis on information
from IRS computer records. While some of these records may not have been available to the
IRS employee at the time the PPIA was initiated, the discrepancy in the income figures could
have been identified if the employee had requested verification from the taxpayer.
Some of these PPIAs were granted by employees who worked streamlined agreements and were
not trained on financial analysis. However, PPIA procedures require that employees not trained
“on financial analysis, transfer the call to the Non-Streamline Installment Agreement
Application.” Eighty percent of the PPIAs granted in our sample were obtained by Wage and
Investment Division employees. As a result of not always verifying income and assets, the IRS
may not be collecting the maximum amounts the taxpayers can pay because these taxpayers will
not have paid off the liabilities in full when the CSEDs expire. In addition, taxpayers are not
treated equitably when employees in different functions perform varying degrees of financial
verifications.
In three cases in which verification of income and assets was properly documented, revenue
officers granted the PPIAs. Because there were only three revenue officer cases in our sample,

14
   Internal Revenue Manual Sections 5.19.5.5.1 (1), 5.14.2.2 (2), and 5.14.2.2.1 (1).
15
   There was no PPIA documentation available for 2 of the 58 PPIAs we reviewed, so we were unable to determine
if these PPIAs received managerial approval or verification of income or assets.
                                                                                                        Page 5
                 Employees Are Not Always Ensuring That Taxpayers Pay the
                  Maximum Amount Possible When Granting Partial Payment
                                 Installment Agreements



Recommendation
Recommendation 2: The Director, Collection, Small Business/Self-Employed Division, and
the Director, Compliance, Wage and Investment Division, should reemphasize that when
working PPIAs employees need to obtain appropriate documentation of income, verify assets,
and appropriately document the verification actions in the history sheets and case files.
Employees should also be reminded that they should be asking taxpayers specific questions
regarding the types of income they receive (wage earner or self-employed), investments they
have, and real property they own and their ability to liquidate or borrow against them.
       Management’s Response: IRS management partially agreed with this
       recommendation, stating the perceived weaknesses in the program that the
       recommendation seeks to correct were isolated to the PPIAs granted in the campuses.
       The IRS is revising the campus Internal Revenue Manual Section 5.19.1 to incorporate
       procedural changes and clarification where necessary regarding income and asset
       verification and analysis. It will provide training to campus employees, including
       instructions relating to PPIAs.
       Office of Audit Comment: IRS management disagreed with the outcome measures as
       described in the report. They did not agree with the number of cases for which an
       employee did not obtain a full financial statement and/or that higher monthly payments
       (or full payments) would have been realized if internal information sources had been
       verified. However, our analysis showed that, if the IRS had performed appropriate and
       accurate financial analyses, it could have realized additional revenues. IRS management
       also disagreed with the assumption that the rejection of an OIC makes granting a PPIA on
       the same account inappropriate. We agree that, as financial conditions of the taxpayer
       change over time, the rejection of an OIC does not preclude acceptance of a PPIA;
       however, the financial analyses for an OIC and a PPIA should be consistently applied,
       including consideration of special circumstances (e.g., elderly or disabled taxpayers), and
       similar decisions should be reached.




                                                                                           Page 7
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether decisions to grant PPIAs are
proper and to determine the effectiveness of the management information system1 used to
measure the PPIA program. To accomplish this objective, we:
I.       Determined if PPIAs were appropriate and were based on accurate and consistent
         financial analyses.
         A. Held discussions with analysts in and managers of the PPIA program and determined:
             1. Procedures and guidelines used in conducting PPIA evaluations.
             2. Trends identified through quality reviews conducted and use of the information
                developed through these reviews.
             3. Internal systems used to verify information provided on Collection Information
                Statements.
         B. Obtained from the IRS Integrated Data Retrieval System2 Taxpayer Information File3
            a computer extract of taxpayer accounts (cases) with the Agreement Locator Number4
            ending in “12” initiated between January 17 and December 16, 2005. The computer
            extract contained 14,042 records. We were unable to assess the reliability of the
            extracted computer data. We relied on this information because this was the only
            source for the data and the IRS did not have a tracking system to determine an actual
            number of PPIAs. We took our sample from the entire universe and indicated which
            cases in our selection were not PPIAs.
         C. Selected a statistically valid sample of 61 cases from our initial extract of
            14,042 cases based on a 95 percent confidence level, a precision level of ±10 percent,


1
  Managers use various information system reports to ensure inventories are being processed properly, sufficient
staffing is being provided and used, and programs are being worked based on established time period requirements.
The reports can also give important information on the effectiveness of a specific team or employee.
2
  The Integrated Data Retrieval System is a computer system with the capability to instantaneously retrieve or
update stored information.
3
  A Taxpayer Information File is a file containing entity and tax data processed by a given IRS campus for all
Taxpayer Identification Numbers. Campuses are the data processing arm of the IRS. They process paper and
electronic submissions, correct errors, and forward data to the Computing Centers for analysis and posting to
taxpayer accounts.
4
  The Agreement Locator Number is a four-digit code indicating the specific type of processing that will occur at the
campus level.
                                                                                                             Page 8
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



             and an estimated error rate of 20 percent. Our sample was reduced to 58 after we
             identified 3 cases that were not part of the PPIA program.
        D. Reviewed the IRS Desktop Integration5 narrative prints supporting the IRS
           determination to accept the PPIA for the 58 sample cases. We analyzed the available
           data and used the IRS Decision IA6 program to determine if the cases qualified for
           PPIA status and if the payment amounts were appropriate.
II.     Evaluated the IRS PPIA management information systems used to measure the program’s
        effectiveness and to identify and evaluate trends.
        A. Discussed with IRS management present and future plans for a management
           information system for the PPIA program.
        B. Determined the current status of the tax accounts of taxpayers who were granted a
           PPIA within 90 calendar days of a rejected OIC by comparing the cases on the IRS
           Automated Offer in Compromise system7 to our PPIA computer extract.
        C. Selected a judgmental sample of 12 cases meeting the above criteria by comparing
           the 14,042 cases from our computer extract to the cases in Step II.B.
        D. Obtained and reviewed the Desktop Integration narrative prints along with the history
           sections of the IRS’ Automated Offer in Compromise system maintained by the
           Treasury Inspector General for Tax Administration Data Central Warehouse.8




5
  Desktop Integration is the current system used by IRS employees in multiple functions to document actions taken
on taxpayer accounts.
6
  Decision IA is an IRS program employees use to determine the type of installment agreement to set up for the
taxpayer.
7
  An IRS computer system used to control offers in compromise.
8
  The Treasury Inspector General for Tax Administration maintains electronic files of certain IRS computer systems
on computers at its Data Center Warehouse.
                                                                                                          Page 9
                 Employees Are Not Always Ensuring That Taxpayers Pay the
                  Maximum Amount Possible When Granting Partial Payment
                                 Installment Agreements



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Lynn R. Rudolph, Lead Auditor
Christina M. Dreyer, Auditor
Denise M. Gladson, Auditor




                                                                                        Page 10
                Employees Are Not Always Ensuring That Taxpayers Pay the
                 Maximum Amount Possible When Granting Partial Payment
                                Installment Agreements



                                                                     Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                           Page 11
                     Employees Are Not Always Ensuring That Taxpayers Pay the
                      Maximum Amount Possible When Granting Partial Payment
                                     Installment Agreements



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•    Reliability of Information – Potential; 14,042 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
Our objective was to determine if the IRS had a management information system1 to identify the
number of PPIAs that had been granted, the number that had defaulted, the amounts the IRS was
collecting, and the amounts the IRS could not collect before the CSEDs.2 We interviewed IRS
management and determined the IRS did not have an appropriate management information
system initially that would identify the performance of the program. Our computer extract for
the period of January 17 through December 16, 2005, identified 14,042 PPIA cases. Because
there was no appropriate management information system initially, we concluded there was a
lack of reliable information for all 14,042 taxpayer accounts.

Type and Value of Outcome Measure:
•    Increased Revenue – Potential; $1,870,943 (see page 4).

Methodology Used to Measure the Reported Benefit:
Our objective was to determine if taxpayers applying for OICs3 and PPIAs were treated equitably
by the two programs. We selected a judgmental sample of 12 OICs that had been rejected by the



1
  Managers use various information system reports to ensure inventories are being processed properly, sufficient
staffing is being provided and used, and programs are being worked based on established time period requirements.
The reports can also give important information on the effectiveness of a specific team or employee.
2
  The CSED is the last date on which the IRS can collect delinquent tax without filing a suit for judgment; it is
usually 10 years from the tax assessment date.
3
  This is an agreement between a taxpayer and the Federal Government that settles a tax liability for payment of less
than the full amount owed. The IRS has the authority to settle or compromise a Federal tax liability by accepting
less than full payment under certain circumstances. This is accomplished through use of an Offer in Compromise
(Form 656).
                                                                                                            Page 12
                    Employees Are Not Always Ensuring That Taxpayers Pay the
                     Maximum Amount Possible When Granting Partial Payment
                                    Installment Agreements



Centralized Offer in Compromise4 units and the taxpayers had been granted PPIAs within
90 calendar days of the rejected OICs. We reviewed the OIC case histories and determined all
12 OICs had been rejected because the Centralized Offer in Compromise units had determined
the taxpayers had the ability to fully pay their liabilities. We calculated that, in 7 of the 12 cases,
the IRS would receive PPIA payments totaling $142,621 on the aggregate current tax liability of
$343,308 at the time each PPIA was granted. The total accrued tax liabilities at the CSEDs for
these taxpayers would be $2,013,564. If these taxpayers would fully pay their tax liabilities
immediately, the IRS would collect $200,687 in additional revenue. If these taxpayers would
fully pay their tax liabilities by the CSEDs, the IRS would potentially collect a maximum of
$1,870,943 in additional revenue.




4
  These are the IRS units located in the Holtsville, New York, and Memphis, Tennessee, Campuses that complete
initial processing and work less complicated OICs to completion. Campuses are the data processing arm of the IRS.
They process paper and electronic submissions, correct errors, and forward data to the Computing Centers for
analysis and posting to taxpayer accounts.
                                                                                                        Page 13
    Employees Are Not Always Ensuring That Taxpayers Pay the
     Maximum Amount Possible When Granting Partial Payment
                    Installment Agreements



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 14
Employees Are Not Always Ensuring That Taxpayers Pay the
 Maximum Amount Possible When Granting Partial Payment
                Installment Agreements




                                                    Page 15
Employees Are Not Always Ensuring That Taxpayers Pay the
 Maximum Amount Possible When Granting Partial Payment
                Installment Agreements




                                                    Page 16
Employees Are Not Always Ensuring That Taxpayers Pay the
 Maximum Amount Possible When Granting Partial Payment
                Installment Agreements




                                                    Page 17
